                      U.S. DEPARTMENT OF THE INTERIOR
                         OFFICE OF INSPECTOR GENERAL




          PROGRAM ASSESSMENT RATING TOOL
               PROGRESS EVALUATION
               BUREAU OF INDIAN AFFAIRS
              REALTY AND TRUST PROGRAM




ER-RR-BIA-0001-2008                        APRIL 2009
                       PART Progress Evaluation
           Bureau of Indian Affairs Realty and Trust Program


                                                  TABLE OF CONTENTS
Acronyms Used............................................................................................................................. iii

Introduction ....................................................................................................................................1

           Why We Did This Progress Evaluation ...........................................................................1
           Objectives............................................................................................................................1
           Methodology .......................................................................................................................1
           BIA Realty and Trust Program Overview.......................................................................2

Analysis and Suggestions...............................................................................................................3
      Strategic Planning. .............................................................................................................3
             Integrated Planning and Performance Management Lacking ..........................4
             Performance Measures Inadequate......................................................................5
             Integrity of Probate Data Questionable ...............................................................8
      Budget and Performance Integration ............................................................................10
      Independent Program Evaluation ..................................................................................13
      Land Fractionation ..........................................................................................................15

Appendix A, History and Use of the PART ............................................................................ A-1

Appendix B, Sites Visited or Contacted ...................................................................................B-1

Appendix C, Suggestions .......................................................................................................... C-1

Appendix D, Performance Goals and Measures .................................................................... D-1

Appendix E, PART Questions That Elicited a NO Answer ...................................................E-1




                                                                       ii
               Acronyms Used

AIPRA    American Indian Probate Reform Act
BIA      Bureau of Indian Affairs
DOI      Department of the Interior
FTE      Full-Time Equivalent
GPRA     Government Performance and Results Act
ILCP     Indian Land Consolidation Program
IWG      Implementation Working Group
LTRO     Land Titles and Records Office
OHA      Office of Hearings and Appeals
OIG      Office of Inspector General
OMB      Office of Management and Budget
OSM      Office of Surface Mining
OST      Office of the Special Trustee
OTRA     Office of Trust Review and Audit
PART     Program Assessment Rating Tool
TAAMS Trust Asset Accounting and Management System




                           iii
                                      Introduction

WHY WE DID THIS PROGRESS EVALUATION
Department of the Interior (DOI) officials asked the Office of Inspector General to review the
progress made by programs designated Results Not Demonstrated by the Office of
Management and Budget. OMB uses the Program Assessment Rating Tool to make these
designations. More detailed information on the PART process can be found in Appendix A.

In consultation with officials in the DOI Offices of Budget         WHAT IS THE PART?
and of Planning and Performance Management, we
                                                              Federal agencies use the Program
selected the Bureau of Indian Affairs (BIA) Realty and        Assessment Rating Tool (PART), a
Trust Program (Program) for this progress evaluation.         standard questionnaire, to submit
OMB reviewed the Program in 2006. It is unclear if OMB        information on federal programs to
will review the Program in 2009 under the PART                the Office of Management and
guidelines.                                                   Budget (OMB). OMB examiners
                                                              assess programs based on responses
                                                              to YES/NO questions in the areas of
                                                              program purpose and design,
OBJECTIVES                                                    strategic planning, program
                                                              management, and — most
Based on its 2006 review, OMB made one                        importantly — program results.
recommendation related to performance measures and two        OMB uses the information to
recommendations on performance budgets. Our objectives        determine program effectiveness, to
in conducting this progress evaluation were to:               recommend improvements for rated
                                                              programs, and to follow up on those
                                                              improvements.
   •   determine what progress the Program has made
       toward implementing the OMB recommendations;           PART results are published on the
                                                              ExpectMore.gov Web site.

   •   provide suggestions the Program can use to             See Appendix A for more
                                                              information on the history and use
       improve its score on the upcoming PART review;         of the PART.
       and

   •   provide observations and suggestions that DOI and the Program can use to improve
       program performance.

METHODOLOGY
To meet the objectives, we interviewed key officials at BIA’s Central Office and reviewed
Program and Program-related documents. We also completed site visits and interviews with BIA
regional and agency staff, as indicated in Appendix B. We conducted this review in accordance
with the “Quality Standards for Inspections” established by the predecessor agency of the
Council of Inspectors General on Integrity and Efficiency. We based our suggestions on OMB
2008 PART guidance.



                                                1
BIA REALTY AND TRUST PROGRAM OVERVIEW
The BIA Realty and Trust Program plays a key role in keeping the DOI promise “to protect and
improve the trust assets of American Indians, Indian tribes, and Alaska Natives.” To this end,
BIA is responsible for administering and managing approximately 56 million acres of Indian-
owned land. Of this land, individual Indians own 10 million acres, and tribes own nearly 46
million acres.

Program functions include processing transfers of lands into and out of trust status; maintaining
records of land titles, leases, and other encumbrances on trust lands for individual Indian owners
and tribes; enforcing compliance with leases and other encumbrances; and processing probates
involving trust assets.

The Program is spread across the three types of offices, termed divisions in this report, which we
describe below. In the BIA Central Office, these divisions report to the Deputy Director for
Trust Services; they provide policy guidance to the regions but have no direct authority over
them. Program services are performed by BIA’s 12 regional offices and 88 local Indian agencies
that are under the supervision of the regional directors. The regional directors report to the
Deputy Director for Field Operations.

   •   Real Estate Services — This division ensures that trust and restricted Indian-owned
       lands are protected, managed, and utilized appropriately. Staff members in the field
       oversee land leasing for agricultural, commercial, residential, and mining activities. They
       also enforce compliance with the terms of leases; handle the transfer of land into or out of
       trust for individual Indians and tribes; and investigate and resolve rights-of-way cases,
       Indian land rights, and trespass cases.

   •   Probate — This division handles probate matters and ensures the accurate and timely
       distribution of assets to legal heirs. Probate staff members in the field prepare the estates
       of deceased owners of trust assets for probate by the Office of Hearings and Appeals
       (OHA) or other judicial bodies. Upon notification of OHA decisions, probate staff
       members prepare documents for distribution of the estate’s financial assets.

   •   Land Titles and Records — This division maintains the official records on trust land
       titles and encumbrances (claims on the land, such as leases and rights-of-way). Staff
       members in the field examine and certify the accuracy of each owner’s interest and any
       encumbrances on a tract. BIA undertakes 40,000 land and resource management
       transactions each year. Each transaction requires some form of title service or product to
       complete the transaction.

The Program is complex in that the divisions share responsibility for multiple processes and
depend on OST and OHA to accomplish the Program mission. In addition, land fractionation —
the ownership of a single parcel of land by multiple owners — has burdened BIA with ever
increasing administrative costs and workload.




                                                 2
                               Analysis and Suggestions

OMB made the following three recommendations to improve program performance based on its
2006 PART review of the Realty and Trust Program.

       •   Establish baselines and targets for all performance measures.

       •   Demonstrate that budget allocation decisions are tied explicitly to accomplishment of
           annual and long-term performance goals, such that budget allocation decisions fully
           reflect performance targets.

       •   Include transparent discussion of program efficiency in budget submission.

We reviewed the Program in 2008 and observed limited progress toward implementing OMB’s
improvement plan. In the following sections, we discuss strategic planning, budget and
performance integration, and independent evaluation. Although OMB did not address
fractionation — the ownership of a single parcel of land by multiple owners — in its PART
review, we conclude with a section on the subject because we consider land fractionation to be a
serious challenge to the Program.

We offer 11 suggestions to help the Program implement OMB’s recommendations and to
ultimately achieve improved program performance. See the complete list of our suggestions in
Appendix C.

STRATEGIC PLANNING
OMB RECOMMENDATION: Establish baselines and targets for all performance
                                 measures.
                                               According to PART guidance, the Program
   TYPES OF PERFORMANCE MEASURES               managers should establish meaningful performance
  OUTCOME measures are the intended            measures, quantify the “baseline” performance from
  results or benefits of carrying out a        which they are starting, and set targets for
  program or activity. Outcome measures
  indicate the impact of program activities    achievement in the near- and long-term. We found
  on the intended beneficiaries.               that managers have made limited progress in
  OUTPUT measures are the internal             developing meaningful performance measures and
  activities of a program that staff members   establishing all baselines and targets, although
  provide over a period of time. Output        www.ExpectMore.gov shows the relevant
  measures refer to products and services      recommendation to have been completed. (See the
  produced by a program and give               complete table of the Program’s current
  managers a sense of how much work is
  being performed.                             performance goals, measures, and targets in
  EFFICIENCY measures capture the ability
                                               Appendix D.)
  of a program to use resources
  economically to produce outputs or           We believe the limited progress results from the
  outcomes.                                    lack of an integrated and systematic approach to
                                               planning and performance management within the

                                                  3
Program, which we discuss below. Next we address our concerns with the Program’s
performance measures and monitoring. We also offer suggestions for improving them. Revising
targets based on performance data can be accomplished in a relatively short time and could be
completed for the 2009 PART review.
                                                                         PART QUESTION 2.2
Integrated Planning and Performance Management
                                                                     Does the program have
Lacking                                                              ambitious targets and
The lack of significant progress on developing meaningful            timeframes for its long-term
                                                                     measures?
performance measures and establishing baselines and targets
demonstrates a need for integrated planning and performance
management. Adopting a strategic approach would help                     PART QUESTION 2.3
Program managers implement OMB’s recommendations.                    Does the program have a
Careful planning should allow the Program to set program             limited number of specific
                                                                     annual performance measures
goals and develop strategies to monitor and improve                  that can demonstrate progress
performance and progress toward meeting those goals, as              toward achieving the program’s
well as to link budget requests to Program targets.                  long-term goals?

We believe that integrating planning and performance                  PART QUESTION 2.4
management could facilitate stronger links between Program       Does the program have
goals and strategies in the planning phase and mechanisms        baselines and ambitious targets
for monitoring in the implementation phase. The Eastern and      for its annual measures?
Alaska Regions have developed their own strategic plans to
facilitate the transition to performance management and budgeting. See “Best Practice: Planning
for Performance.”

                                       In the absence of a Program-level strategic planning
       BEST PRACTICE:
                                       process, senior management revised three of the Program’s
  PLANNING FOR PERFORMANCE
                                       five performance measures during the Department’s FY
  The BIA Eastern Region took a        2007 strategic planning discussions. The changes not only
  collaborative approach to
  planning to ease the transition to   meant that Program staff with on-the-ground knowledge
  performance-based management.        had little input into the measures, but they necessitated
  It formed the Implementation         setting new baselines, which are now in place. In addition,
  Working Group (IWG) and              two performance measures still lack long-term targets.
  invited Eastern tribes, tribal
  organizations, service providers,
  and staff members to participate.    Where targets have been set, they do not always make
                                       sense, which provides further evidence that the
  The IWG was responsible for
  educating staff members and          performance management process is not strategic or well-
  partners on the planning process     planned. For example, the long-term target for one real
  and BIA goals. It drafted a plan     estate measure is lower than the annual targets proposed for
  to monitor how well programs are     prior years.
  performing and developed budget
  proposals based on the Region’s      Planning typically lays out a program’s mission and
  goals and performance.
                                       identifies key goals and strategies for fulfilling that
                                       mission. Each tier of a plan offers a greater level of detail
than the tier above it about the work to be done and can be logically linked to tiers above and
below (see Figure 1). Nested within each strategic goal is a bundle of performance goals that

                                                  4
includes performance measures, baselines, and targets. Performance goals establish the desired
result of performance, while measures enable managers to determine whether staff members
have met a specified level of performance. Targets establish how well a program must perform
or how much work must be done within a given period of time to meet program performance
goals. Whereas planning moves from the mission statement downward to the targets,
implementation begins by meeting targets and building back up to the strategic goals.
According to the Deputy Director for Realty and Trust, the Program has no strategic plan or
planning process. She has indicated that she intends to convene a small planning group among
her senior staff in FY 2009 to take the first steps in developing a strategic plan process. While
engagement of senior staff is important, we believe it is as important to engage staff in the field
— at least at the regional manager level — as it is to engage key partners, such as the tribes,
OST, and OHA. Such engagement at multiple levels with stakeholders who have varied interests
should facilitate the planning process. It should also result in strategies that improve
coordination of work processes across regional offices, divisions, and bureaus and help
individual units — and the Program — become more efficient. Further, including a
representative group of field staff members in the process may also facilitate “buy-in” to the
goals and performance standards.




                                                  Mission
                     Planning                    Statement
                                                                            Implementation

                                                  Strategic 
                                                   Goals


                                              Performance Goals



                                Performance      Baselines        Targets
                                 Measures




     Figure 1. Representation of OMB’s Strategic Planning Process

       SUGGESTION 1
       Initiate a Program-level planning process that includes regional managers, OHA,
       OST, the tribes, and other key partners.

Performance Measures Inadequate
We found several limitations with the Program’s performance measures that, if addressed, would
help meet OMB’s expectations and assist managers and staff in improving Program

                                                     5
performance. The limitations include 1) an incomplete set of measures that overlooks important
functions; 2) over reliance on output measures; 3) measures that are too broadly defined to be
useful management tools; and 4) imprecise measure definitions that result in unreliable
performance data.

The PART measures are not meant to be comprehensive. Our discussion of measures below
pertains to a broader vision of performance measures, rather than merely PART measures
themselves.

Incomplete Set of Measures The current set of measures fails to address all functions and to
allow for regional differences. We believe the consequence has been the inability of Program
managers to consistently identify Program performance strengths and weaknesses.

The most notable gap is a measure for Land Titles and Records. With the 2007 implementation
of the Trust Asset Accounting and Management System (TAAMS), the Land Titles and Records
Offices (LTROs), as the field-level offices are known, became the sole owner of land title
records. The LTROs maintain the official title records for trust assets and play a vital role in
ensuring the accuracy and timeliness of ownership information. According to one deputy
regional manager, his region’s operations depend on the functioning of the LTRO. In fact, Land
Titles and Records functions impact the entire Program. A measure that captures the LTROs’
effectiveness is, therefore, critical.

In Real Estate Services, acquisition and disposal of land and lease compliance activities are
significant functions that also lack measures. Compliance activities ensure that actions being
taken on trust lands are carried out in compliance with the terms of the lease(s). The acquisitions
and disposal staff oversee the transfer of lands into and out of trust status. Both processes can
have environmental and financial consequences for the Bureau and land owners if not
implemented properly. Developing a measure can help to ensure accountability and appropriate
attention.

We also found that Program managers have developed a limited number of “one-size-fits-all”
performance measures. These measures do not reflect regional differences, such as differing
land uses, tribal norms, and the amount of land that goes through probate. For example, the two
agricultural lease measures do not capture how land is used in the Midwest and Southwest
Regions. In the Midwest, the tribes invest in non-agricultural income-producing activities. In
the Southwest, tribal lands are located in remote, high desert areas with little vegetation or water
available for agricultural or range leasing. Families there tend to keep land for family activities
and do not lease it out to non-tribal persons.

Overreliance on Output Measures In addition to the limitations discussed thus far, Program
managers have emphasized output measures, rather than develop a balanced mix of output,
outcome, and efficiency measures, as required by OMB. Each type of measure provides useful
but different kinds of information (see box on page 3). The Program’s PART measures currently
include only one outcome measure, the “percent of eligible trust land acres under lease for
agricultural use.” Not only is this the sole outcome measure, it should be classified as an output
measure as it does not directly measure a benefit for or impact on the Program’s beneficiaries.

                                                 6
An outcome results from one or more outputs or activities. For example, Real Estate Services
tracks the number of agricultural leases it issues — a measure of staff output. The leases
                                  generate income for land owners; Program managers could
     PART QUESTION 4.1            measure how much income these leases generate — an outcome
                                  measure. If advancing the economic welfare of American
  Has the program
  demonstrated adequate           Indians is a Program goal, measuring income generated from
  progress in achieving its long- leases would be one way to demonstrate progress toward that
  term performance goals?         goal.

     PART QUESTION 4.2            Broadly Defined Measures We found that existing measures
  Does the program (including     fail to address the interrelated nature of the work the divisions
  program partners) achieve its   perform. For example, probate begins when a local BIA agency
  annual performance goals?       receives notification of death (see Figure 2 for an illustration of
                                  the process). Agency employees work with probate staff in the
regional office and with the LTRO to prepare the case for adjudication. Once OHA has
determined the distribution of assets to the heirs, the LTRO changes titles to the property,




                               Figure 2. Probate Process
probate staff members prepare documents for OST, and OST disburses financial assets. A
probate case cannot be closed until every office has carried out its responsibilities. However,
managers have defined measures too broadly to accommodate the specific activities of the
individual divisions.



                                                 7
We believe that measures that capture the work of multiple offices or bureaus are not useful to
managers in terms of performance management. Program managers could develop sub-measures
for processes that span more than one division, which should allow identification of any
bottlenecks that exist. Finally, broadly defined measures that span multiple divisions and offices
result in staff members being held responsible for work outside their control.

       SUGGESTION 2
       Develop a full set of output and outcome measures for the Realty and Trust
       Program, including:

           a. division-specific measures for processes that span more than one division to
              enable division managers to monitor their own staff members’ performance
              and to identify potential roadblocks in the workflow and

           b. region-specific measures, where appropriate, to encompass regions with
              distinctive activities.

Imprecise Measure Definitions During our review, staff members and managers expressed
doubts about the reliability of the efficiency measure “total number of agriculture and range
acres leased where lease proceeds exceed administrative cost of the leased-acres base in the
reporting year.” Specifically, regional managers were unsure which costs to include when
calculating their administrative costs. During quarterly conference calls to verify performance
data, the regional managers discovered inconsistencies in how the regions calculated this
measure. After initial problems surfaced, the measure was redefined. According to regional
staff, however, inconsistencies in data collection methods persist. We discuss our concerns with
imprecise probate data in the next section.

       SUGGESTION 3
       Clarify the definition for the performance measure “percent of agriculture and
       range acres under lease where lease proceeds exceed administrative cost of the
       leased-acres base” to ensure that consistent data are collected from the regions.

Integrity of Probate Data Questionable
In 2006, the Congress appropriated additional money to the Program to close out its backlog of
probate cases. BIA then defined the backlog to create a finite set of cases and to ensure priority
of the oldest cases. The backlog is comprised of cases that were
part of the managed probate inventory as of September 30, 2005,          Performance goals are
and in which the decedent’s date of death was either unknown or          considered “met or
                                                                         exceeded” only when the
occurred prior to January 1, 2000. Program managers then                 target was reached exactly
established the “percent of backlog cases closed” as a key PART          as stated or exceeded.
performance measure.                                                           — OMB Circular A-11,
                                                                                      Section 220 (c)
Central Office provides regional managers with probate progress
reports and case inventory reports to help them monitor progress toward the performance goals.
These reports show the number of cases completed at each stage of the probate process, the level
of effort expended, and progress made on achieving PART performance goals.
                                                 8
We identified problems, however, with the reports’ data that raised questions about its integrity,
reliability, and usefulness for measuring progress. Improper changes in data and unclear data
definitions have led to a situation in which regional managers are unable to use the reports to
improve performance.

Improper Changes in Data We found changes in the PART backlog performance measure data
in the reports from one data run to the next — within a short period. The backlog measure
“percent of backlog cases closed” is officially defined in the PART as the number of backlog
cases closed during the reporting year (numerator) divided by the total number of backlog cases
at the beginning of the reporting year (denominator). The table below displays data from three
progress reports that we obtained for the Midwest Region for June 2008. In the June 13 report,
the number of backlog cases at the beginning of the reporting year was specified as 836. By the
end of the month, this number had fallen to 597 — a 29 percent decline.
                                                                 Consequently, the percent of
          Table 1. Percent of Backlog Cases Closed               backlog cases closed rose,
                                                                 perhaps falsely inflating the
Report        Number of     Total number of     Percent of       results reported to policy
 Date       backlog cases    backlog cases    backlog closed
                                                                 makers. Because the pool of
             reported as     (denominator)    using changing
               closed                          denominator       backlogged cases was
             (numerator)                                         established as a finite number,
6/13/08          360              836                43          the denominator should be
6/26/08          371              582                64          constant.
6/30/08          421              597                71
                                                                  Unclear Data Definitions We
also found a lack of clarity in probate data, which undermines the reliability of the performance
data. The probate progress reports and case inventory reports discussed above classify probate
cases as backlog, estates closed, quota, non-quota, target, and incentive. The definitions of these
terms and the relationships among them are not clear to the regional managers or to us.

Furthermore, the data source of the “percent of backlog cases closed during the reporting year”
measure is not readily apparent from the information contained in the reports. Regional
managers and staff members, therefore, are unclear about how their performance is measured. If
Program managers intend to use the reports to assist in monitoring progress toward performance
measures, the key terms need to be clearly defined, relationships among them need to be
transparent, and sources of data should be made available. Not only are clarity and reliability
vital to Program mangers, they are key to demonstrating the integrity of data reported to the
Congress, the Department, and OMB.

             SUGGESTION 4
             Conduct a thorough review of probate performance data to ensure that accurate
             data are being provided to regional managers and reported to DOI, the
             Congress, and the Courts.




                                                 9
             SUGGESTION 5
             Provide written communications to regional managers and staff members that
             clearly define how the data are collected and the measures are calculated to
             ensure they are useful for improving performance.


BUDGET AND PERFORMANCE INTEGRATION
OMB RECOMMENDATION: Demonstrate that budget allocation decisions are tied
explicitly to accomplishment of annual and long-term performance goals, such that
budget allocation decisions fully reflect performance targets.
To determine what progress Program managers have made regarding this recommendation, we
reviewed BIA’s FY 2007 and FY 2009 budget justifications. We also interviewed officials in the
Central Office and several regional offices regarding budget development. We found the
Program’s FY 2009 Budget Justification (Justification) to be both confusing and inconsistent.

The FY 2007 Budget Justification served as the basis for OMB’s assessment and resultant NO
answer on Question 2.7 in the Program’s 2006 PART. To
receive a YES on Question 2.7, OMB requires that a
                                                                   PART QUESTION 2.7
program’s budget presentation 1) demonstrate how the
                                                            Are budget requests explicitly
requested resources will enable the program to meet its
                                                            tied to accomplishment of the
performance targets and 2) clearly show how funding and     annual and long-term
policy or legislative changes are expected to impact the    performance goals, and are the
program’s ability to meet annual and long-term              resource needs presented in a
performance targets.                                        complete and transparent manner
                                                                         in the program’s budget?
More specifically, a budget justification must meet the
requirements set forth in OMB Circular A-11. That Circular, “Preparation, Submission, and
Execution of the Budget,” requires agencies to set performance targets for outcome goals and
specifies that “integrated budget and performance information for the listed outcomes and
outputs [be provided] in sufficient detail to allow OMB to [comment on or recommend] both
budget and performance levels.”

To fulfill these requirements, a program must present a full set of measures, from outcome goals
down to the outputs that support them, and annual and long-term performance targets for each
measure. How the requested funds are to be used so that the program can meet those targets
must be explained.

The Justification does not present as the result of a coordinated, across-the-board planning and
allocation effort. Only two measures1 were in place at the beginning of FY 2006 and could be
listed in the FY 2007 Budget Justification’s Goal Performance Table. These measures pertained
to subactivities in only one division, Probate, of the Program’s three divisions. Consequently,
the Program was given a NO answer on PART Question 2.7.

1
 The measures were “percent reduction in the case preparation backlog (pre-2000) each year” and “average age of
probate cases in preadjudication (# in years).”

                                                       10
As discussed earlier in this report, the Program still lacks a full set of performance measures with
baselines and targets. Without performance goals, measures, and targets covering the extent of
Program activities, it is not possible to demonstrate clearly that the Program is actually using
performance information to allocate funds.

                                                   In our examination of the FY 2009 Justification,
 To earn a high PART rating, a program must        we found that the Funding by Goals Table ties
 use performance to manage, justify its resource   the funding request for each of the five
 requests based on the performance it expects to   subactivities within the Program (Probate,
 achieve, and continually improve efficiency…      Probate Backlog, Land Title and Records
     — Guide to the Program Assessment Rating Tool Offices, Real Estate Services, and Land Records
                       (PART), OMB, January 2008   Improvement) to the DOI “fulfill Indian
                                                   fiduciary trust responsibilities” outcome goal.
The Program’s performance measures and targets, as shown in the Justification’s Goal
Performance Table (GPT) and in Appendix D of this report, now include measures for real estate
services goals. This is in addition to revised measures for probate and probate backlog goals;
however the measures remain incomplete and unclear. Notably, Land Titles and Records lacks
even a single performance measure.

In addition, budget information is not included in the GPT. Officials from Indian Affairs and
DOI told us that discussions are ongoing with OMB on how DOI and its bureaus can present that
information consistently. They expect the FY 2010 Indian Affairs Justification to have those
figures.

In terms of staffing, OMB looks for workload analyses with unit costs and performance
standards to justify requirements. The Justification narrative does contain a Probate Staffing
Justification Table with quotas, task hours, and full-time equivalent (FTE) positions needed.
However, the data are not explicitly tied to the probate performance measure targets or to the
requested funding. The Program Change Justification Section also presents the estimated
additional probate workload for FY 2008 and the FTEs needed to meet that workload. The
discussion, however, fails to relate the additional funding and FTEs requested to the expected
workload or targets.

The Real Estate Services narrative references OMB’s recommendation to “demonstrate that
allocation decisions are tied explicitly to accomplishment of
annual and long-term goals…” and states that the recommendation
                                                                       …budget requests should
has been completed. However, we found neither a link between           be justified on the basis of
funds requested and targets nor complete measures. The measure         resources needed to make
“percent of title encumbrances requested during the reporting year     planned progress toward
that are completed by the end of the reporting year” is an output      the strategic goals.
measure incorrectly identified in the Justification as an end                 — OMB Circular A-11,
outcome measure. It has a percentage target for FY 2009; the                          Section 220 (b)
Justification does not discuss how funds are to be used to meet
that target. Oddly, no performance goals exist for cadastral (boundary) surveys, lease
compliance, or unresolved Indian rights activities, yet performance targets are presented in the
Justification narrative.

                                                  11
It is apparent that budgeting for performance is not well understood and that it is applied only
sporadically. For the most part, the budget is focused on the past, not the future. Our interviews
with officials in the Central Office and several regional offices support this analysis. One
official told us the budget is constructed by requesting funds to fill FTEs allocated. Another
noted that, without meaningful performance measures, it is difficult to tie budget to performance.
This official told us that distribution of funds among regions is based on criteria such as the
number of trust land acres, number of allotted acres, number of approved transactions, etc. —
none of which is forward-looking. Beyond creating performance measures and targets to which
the budget can be linked, the first step in meeting OMB’s budget justification requirements is for
Program officials to understand what a performance-based budget is, its value in managing a
program, and how to develop one.

           SUGGESTION 6
           Hold budgeting workshops with managers at all levels to develop processes for
           linking budgeting with performance targets.

OMB RECOMMENDATION: Include transparent discussion of program efficiency in
budget submission.

For a YES answer to Question 4.3, a program must explain improvements in efficiency or cost
effectiveness over the previous year, in dollars where possible. The Program received a SMALL
EXTENT answer on this question due to the completion and fielding of several handbooks that
offered improved and standardized processes. However, the FY 2007 Budget Justification, cited
in the evidence for Question 4.3, contained little information on efficiency improvements and
                              none on dollar savings. We reviewed the FY 2009 Justification to
                              assess the Program’s progress on OMB’s recommendation.
   PART QUESTION 4.3
 Does the program             In terms of meeting the OMB Circular A-11 requirement that
 demonstrate improved         budget submissions “. . . should highlight effectiveness and
 efficiencies or cost
 effectiveness in achieving   efficiency gains and how the agency has used or plans to use
 program goals each year?     them,” we note that the lack of transparency remains. In the
 (This question received a    Justification, we found efficiency improvement figures of 75
 SMALL EXTENT answer.)        percent and 80 percent in recordation time for conveyance title and
                              encumbrance documents, respectively. These figures are
calculated based on FY 2005 data and indicate improvement over two years. We also found an
instance in which an 85 percent decrease in average number of days for processing conveyance
documents from start to finish reflected data spanning FYs 2004 to 2007. Not only is the stated
85 percent decrease nonresponsive to the FYs 2006-2007 period, its inclusion implies a greater
improvement than the reality supports.

The time it takes to process conveyance documents is important efficiency information. If we
calculate the reduction for the last 2 years reported (23 days in FY 2006 and 22 days in FY
2007), we see that Land Titles and Records had improved its start-to-finish processing time by
4.3 percent. Program managers would have improved transparency by making that calculation
for the reader and clearly explaining what it means.

                                               12
In another example, the Real Estate Services Section of the Justification listed a number of
manuals the division had developed to standardize policy and practice but classified them as
“recent accomplishments.” The classification leaves the reader to wonder if the manuals were
completed in FY 2007 or in a previous year. Also, TAAMS, which consolidates agricultural
leases and land titles in one database and automates lease invoicing and payments, is recognized
as providing Real Estate Services with the capability to determine time and cost information, but
the data are not presented.

The Deputy Director for Trust Services informed us that she can use TAAMS to determine how
many encumbrances have been issued but not how many were requested or where the requests
are in the process. She also told us that she is currently working with the TAAMS contractor to
obtain additional information on encumbrances. BIA also plans to expand TAAMS to include
mineral and other types of leases and to provide access to major partners, such as OHA. Because
of these improvements, we believe the Program is well positioned to invest time and resources to
determine what kind of performance data are needed to better manage and budget for
performance.

           SUGGESTION 7
           Work with the data systems contractors to expand the type of performance data
           collected and reported to managers.

As stated previously, we found the Program’s Justification as a whole to be confusing and
inconsistent. The managers of each subactivity provided different types of information, which
was then plugged into the Indian Affairs budget. For example, Probate and Probate Backlog
provided staffing justification based on workload; Land Titles and Records provided efficiency
data but no staffing information at all. The Justification is clearly not the result of a coordinated,
across-the-board planning and allocation effort.

To fare better on the Program’s budget questions in the next PART, Program managers could
benefit from other programs’ best practices in developing a consistent and coordinated budget
justification that clearly communicates how requested funding is to be used to meet performance
targets. See the OSM Budget Justification at http://www.osmre.gov/topic/budget/docs/FY09.pdf
for an excellent example of tying program performance to a budget request. OMB rated two of
OSM’s three programs Effective and the third Moderately Effective in their PART reviews. All
three received YES answers to PART Questions 2.7 and 4.3.

           SUGGESTION 8
           Require all Program subactivities to submit budget requests that comply with
           the requirements of OMB Circular A-11 Sections 51 (Budget Justification
           Materials) and 220 (Preparing and Submitting Performance Budgets).

INDEPENDENT PROGRAM EVALUATION
The overall objective of independent program evaluation is to determine a Program’s
effectiveness in a more rigorous and comprehensive manner than the PART alone can do. While
OMB did not offer a recommendation on independent evaluation, the Office does focus on the


                                                  13
effectiveness of a program as a whole. Specifically, the Program rated a NO answer on PART
Question 2.6 and a SMALL EXTENT2 on Question 4.5.

Program managers would be well-advised to address the need for independent evaluation to
improve the Program’s scores on the next PART. To meet OMB requirements, high quality
evaluations of sufficient scope must be conducted by independent, unbiased parties on a regular
basis. OMB, however, recognizes that not every program is amenable to a large-scale impact
evaluation. In the case of the complex BIA Realty and Trust Program, it would be appropriate to
conduct a set of evaluations that, together, fulfill the scope criterion, rather than to conduct one
large evaluation.
                                                                             PART QUESTION 2.6
When we asked the Deputy Director for Trust Services about
                                                                         Are independent evaluations of
developing a schedule for evaluations, she replied that OST              sufficient scope and quality
does regular evaluations of the Program. To the contrary, the            conducted on a regular basis or
Acting Director of the OST Office of Trust Review and                    as needed to support program
Audit (OTRA) told us that his Office conducts reviews of                 improvements and evaluate
regions, LTROs, and tribes. OTRA makes sure that realty                  effectiveness and relevance to
                                                                         the problem, interest, or need?
transactions dealing with trust lands meet the Code of Federal
Regulations, DOI policies and procedures, and fiduciary
                                                                             PART QUESTION 4.5
standards.
                                                                         Do independent evaluations of
                                                                         sufficient scope and quality
Our review of the Indian Trust Examiners Guide and two                   indicate that the program is
OTRA trust examination reports revealed that, although                   effective and achieving results?
comprehensive, the OTRA reviews do not meet OMB’s                        (This question received a
scope requirement. The reports do address some activities                SMALL EXTENT answer.)
within the Program’s divisions, Real Estate Services,
Probate, and, minimally, Land Titles and Records. They are, however, agency- and tribe-
specific and do not rise to the Bureau level.

OTRA’s trust examination work would provide a good starting point for evaluations that cover
each of the Program’s divisions or specific functions within those divisions — but on a national
basis. For example, the need to provide customer service was mentioned by several interviewed
officials. An evaluation of customer service needs, practices, and workload, as well as customer
satisfaction, would provide valuable information to management.

            SUGGESTION 9
            Request assistance from OTRA on planning a series of regular, recurring
            evaluations that meet OMB’s quality, scope, and independence criteria.

            SUGGESTION 10
            Build evaluation funding into future budget requests.




2
 OMB gives partial credit for less than full performance. SMALL EXTENT indicates minimal performance;
LARGE EXTENT indicates notable performance.

                                                    14
LAND FRACTIONATION
While land fractionation falls outside the PART process, it is a significant challenge for BIA and
DOI and directly affects Program performance. We believe that if BIA can help slow down the
rate of fractionation and consolidate ownership interests, Program efficiency will increase, as
will economic benefits of the land to Indians.

Land fractionation arose out of a legal prohibition against Indian landowners subdividing trust
lands. In reality, it breaks up trust lands into economically unviable and administratively costly
units and negatively affects Indian landowners, tribes, and BIA.

Owners hold “undivided interests,” much like shares in a company, rather than individual parcels
of land. With each new generation of owners, the economic benefit of land ownership declines
through shrinking interests and an inability to use the land productively.

Figure 3 illustrates how control of an original allotment of 160 acres is diluted over six
generations such that an individual owner would be unable to use the land because they hold
1/432 interest in the tract. The exponential growth in number of interests increases BIA’s
administrative burden and its cost of tracking owners’ accounts and processing probates.
According to the BIA Indian Land Consolidation Center, 225,000
owners have 3.2 million interests in over 10 million acres of land.        PART QUESTION 1.4
                                                                          Is the Program design free
To help address the problem posed by fractionation, BIA initiated       of flaws that would limit the
a land consolidation pilot program in 1999 on three reservations in program’s effectiveness or
the Midwest Region. The pilot program demonstrated that owners efficiency?
were willing to sell their interests to the tribe and that DOI could
acquire these interests at a reasonable cost. The consolidation of land under tribal ownership
increased the capacity of the tribes to undertake economic development projects and generate
income for members. DOI benefited from the reduction in the number of individual accounts
and small dollar transactions.

Based on pilot program results, the Congress, through the American Indian Probate Reform Act
of 2004 (AIPRA)3, authorized the Secretary of the Interior to acquire and consolidate
fractionated land interests in the name of the tribe with jurisdiction over the land. DOI then
established the Indian Land Consolidation Program (ILCP) to address the fractionation problem.
By the end of September 2008, ILCP had acquired 393,282 individual interests and prevented the
establishment of an estimated 804,924 new fractionated land interests over its 8-year life. As a
result, the growth rate in the number of interests on 219 reservations declined from 12.9 percent
to 4.8 percent. ILCP calculated that these purchases prevented an estimated 5,224 new
Individual Indian Money accounts and 7,453 new probates. ILCP expended $173 million over 8
years to save or avoid estimated future costs of over $587 million.




3
    Public Law 108-374.

                                                  15
                            Original Allottee 160 Acres

               1/3                                  1/3                                  1/3 
             interest                             interest                             interest


                   1/9                              1/9                                1/9
                 interest                         interest                           interest


                  1/36                   1/36                    1/36                  1/36
                interest               interest                interest              interest


                             1/144                  1/144                  1/144                 1/144
                            interest               interest               interest              interest


                                  1/432              1/432            1/432
                                 interest           interest         interest




               Figure 3. Representation of Land Fractionation


Despite these achievements, OST eliminated ILCP from its FY 2009 budget request. According
to ILCP officials, OST decision-makers concluded that the ILCP’s impact did not justify its
costs.


     PART QUESTION 4.3              The Congress also included estate planning provisions in
 Does the Program demonstrate       AIPRA. Estate planning entails educating Indians on the
 improved efficiencies or cost      benefits of writing wills. Use of wills would allow Indians to
 effectiveness in achieving         consolidate their land interests in one or a few specific heirs or
 program goals each year?
 (This question received a          to bequeath interest(s) back to the tribe with jurisdiction. Both
 SMALL EXTENT answer.)              options would avoid equal division among all eligible heirs
                                    through probate.

Finally, OST contracted with the Inter-Tribal Monitoring Association to consult with tribes and
recommend alternative strategies for addressing fractionation to the Special Trustee by FY 2009.

       SUGGESTION 11
       Work with OST, tribes, tribal organizations, and other Indian-related organizations
       to develop and implement estate planning and educational strategies for slowing the
       rate of land fractionation.


                                                        16
                                     Appendix A
                       History and Use of the PART



Planning and performance In 1993, the Congress found federal managers to be
           monitoring are “disadvantaged in their efforts to improve program efficiency
          required by law and effectiveness, because of insufficient articulation of
                          program goals and inadequate information on program
                          performance.” The Government Performance and Results Act
                          (Public Law 103-62), or GPRA, was passed to promote a focus
                          on results by requiring federal agencies to engage in strategic
                          planning and performance reporting.

  Objectives and results of   The “President’s Management Agenda,” which includes a U.S.
     federal programs are     Government-wide initiative to improve budget and performance
   assessed during budget     integration, was published in 2001. The Agenda calls for
              formulation     agencies to monitor program performance and to incorporate
                              performance review into budgetary decision-making.

                              To support this initiative, the Office of Management and Budget
                              (OMB) instituted a new activity within the context of budget
                              formulation. OMB uses a standard questionnaire called the
                              Program Assessment Rating Tool to engage federal programs in
                              a review of program design, strategic planning, program
                              management, and the achievement of results that demonstrate
                              value for the taxpayer. Through the PART process, OMB rates
                              programs as Effective, Moderately Effective, Adequate, or
                              Ineffective. Alternatively, OMB deems programs that are
                              unable to provide reliable performance information (thus
                              precluding assignment of a program rating) Results Not
                              Demonstrated and recommends establishment or improvement
                              of mechanisms for performance measurement.

OMB has found that many Of the 70 DOI programs assessed between 2002 and 2008,
       DOI programs lack OMB rated only eight programs (11 percent) Effective and
 performance information placed 13 programs (19 percent) in the category Results Not
                         Demonstrated. DOI programs assessed through the PART
                         process reflect over $10 billion dollars in annual budget
                         authority. Approximately one fifth of this spending is
                         associated with programs that lack reliable performance
                         information.



                                            A-1
   PART Ratings for DOI             Number of         Percent of
   Programs, 2002-2008              Programs          Programs
Effective                                  8               11
Moderately Effective                      24               34
Adequate                                  25               36
Ineffective                                0                 0
    Results Not Demonstrated              13               19

                        TOTAL             70              100



PART findings can be used to 1) justify termination or
substantial curtailment of federal programs, 2) support legislative
or fiscal enhancements, or 3) promote management
improvements. OMB publishes PART results on its
ExpectMore.gov Web site, together with recommended
improvement actions for every program it has assessed. Agency
officials and program managers are expected to follow up on
these recommendations and to keep OMB, and ultimately the
public, apprised of progress through updates of the information
posted to ExpectMore.gov and through internal communications.
OMB then reassesses programs on schedules developed in
consultation with responsible agencies.




                A-2
                      Appendix B
           Sites Visited or Contacted

     BIA Midwest Regional Office, Minneapolis, Minnesota
    BIA Rocky Mountain Regional Office, Billings, Montana
         Crow Indian Agency, Crow Agency, Montana
       BIA Eastern Regional Office, Nashville, Tennessee
   BIA Southwest Regional Office, Albuquerque, New Mexico
       OST Office of Probate, Albuquerque, New Mexico
OST Office of Trust Review and Audit, Albuquerque, New Mexico
     Indian Land Consolidation Center, Ashland, Wisconsin




                                               OIG Staff Photo




                              B-1
                                 Appendix C
                                Suggestions


Number                             Suggestion                                  Page

                              Strategic Planning
         Initiate a Program-level planning process that includes regional
  1                                                                             5
         managers, OHA, OST, the tribes, and other key partners.
         Develop a full set of output and outcome measures for the Realty
         and Trust Program, including a) division-specific measures for
         processes that span more than one division to enable division
  2      managers to monitor their own staff members’ performance and to        8
         identify potential roadblocks and b) region-specific measures,
         where appropriate, to encompass regions with distinctive
         activities.
         Clarify the definition for the performance measure “percent of
         agriculture and range acres under lease where lease proceeds
  3                                                                             8
         exceed administrative cost of the leased-acres base” to ensure that
         consistent data are collected from the regions.
         Conduct a thorough review of probate performance data to ensure
  4      that accurate data are being provided to regional managers and         9
         reported to DOI, the Congress, and the Courts.
         Provide written communications to regional managers and staff
         members that clearly define how the data are collected and the
  5                                                                             9
         measures are calculated to ensure they are useful for improving
         performance.

                 Budget and Performance Integration
         Hold budgeting workshops with managers at all levels to develop
  6                                                                             12
         processes for linking budgeting with performance targets.
         Work with the data systems contractors to expand the type of
  7                                                                             13
         performance data collected and reported to managers.
         Require all Program subactivities to submit budget requests that
         comply with the requirements of OMB Circular A-11 Sections 51
  8                                                                             13
         (Budget Justification Materials) and 220 (Preparing and
         Submitting Performance Budgets).



                                         C-1
Number                            Suggestion                              Page

                   Independent Program Evaluation
         Request assistance from OTRA on planning a series of regular,
  9      recurring evaluations that meet OMB’s quality, scope, and         14
         independence criteria.
  10     Build evaluation funding into future budget requests.             14

                             Land Fractionation
         Work with OST, tribes, tribal organizations, and other Indian-
         related organizations to develop and implement estate planning
  11                                                                       17
         and educational strategies for slowing the rate of land
         fractionation.




                                        C-2
                                        Appendix D
                            Performance Goals and Measures
Mission Area: Serving Communities
End Outcome Goal: Fulfill Indian Fiduciary Trust Responsibilities
                                                                                                                                            Long-
Intermediate                                                                                                            2008       2009
                                PERFORMANCE                                        2005         2006         2007                            term
Outcome         DIVISION                                 Term         Type                                              Plan      Budget
                                  MEASURE                                         Actual       Actual       Actual                          Target
Goals                                                                                                                  Target     Target
                                                                                                                                             2012
                                                        Long-                                                           90%
                            Percent of estates                                                               89%
                Probate                                 Term/        Output      Unknown         58%                    (87%       95%      100%
                            closed1                                                                        baseline
                                                        Annual                                                         actual)
Ownership                   Percent of backlog          Long-
Information                                                                                     55%
                Probate     cases closed during         Term/        Output      Unknown                     52%        100%       100%     100%
                                                                                              baseline
That is                     the reporting year1         Annual
Accurate,                   Percent of title
Timely, and                 encumbrances
Reliable        BIA/Real                                Long-
                            requested during the
                 Estate                                 Term/        Output      Unknown      Unknown        89%        90%        95%      TBD
                            reporting year that are
                Services                                Annual                                             baseline
                            completed by the end
                            of the reporting year1
Cost-
                              Percent of agricultural
effective
                              and range acres under
Lease Mgmt BIA/Real                                         Long-      Efficiency Unknown       68,0222        72%         75%       80%    TBD
                              lease where lease
That is           Estate                                    Term/                                            baseline      (88%
                              proceeds exceed
Accurate,        Services                                  Annual                                                        actual)
                              administrative cost of
Timely, and
                              the leased acres base1
Reliable
No
                              Percent of eligible trust
Associated       BIA/Real
                              land acres that are
Intermediate      Estate                                   Annual       Outcome        73%    Unknown          72%         99%       100%    78%
                              under lease for
Outcome          Services                                                            baseline
                              agricultural use
Goal
1
  Measure names and definitions were changed in FY 2007, resulting in new baselines.
2
  2007-2012 DOI Strategic Plan and FY 2008 PAR show this as an end outcome performance measure without an intermediate outcome goal.
Sources: 2006 PART, 2008 PAR, FY 2009 Budget Justification, 2007-2012 DOI Strategic Plan, PART Performance Measure Definitions




                                                                        D-1
                                      Appendix E
             PART Questions That Elicited a NO Answer


                                   Strategic Planning

PART Question 2.2. Does the program have ambitious targets and timeframes for its long-term
measures?

PART Question 2.3. Does the program have a limited number of specific annual performance
measures that can demonstrate progress toward achieving the program’s long-term goals?

PART Question 2.4. Does the program have baselines and ambitious targets for its annual
measures?

PART Question 4.1. Has the program demonstrated adequate progress in achieving its long-
term performance goals?

PART Question 4.2. Does the program (including program partners) achieve its annual
performance goals?

                       Budget and Performance Integration

PART Question 2.7. Are budget requests explicitly tied to accomplishment of the annual and
long-term performance goals, and are the resource needs presented in a complete and transparent
manner in the program’s budget?

PART Question 4.3. Does the program demonstrate improved efficiencies or cost effectiveness
in achieving program goals each year? (This question received a SMALL EXTENT answer.)

                         Independent Program Evaluation

PART Question 2.6. Are independent evaluations of sufficient scope and quality conducted on
a regular basis or as needed to support program improvements and evaluate effectiveness and
relevance to the problem, interest, or need?

PART Question 4.5. Do independent evaluations of sufficient scope and quality indicate that
the program is effective and achieving results? (This question received a SMALL EXTENT
answer.)




                                              E-1
                                  Land Fractionation

PART Question 1.4. Is the program design free of major flaws that would limit the program’s
effectiveness or efficiency?

PART Question 4.3. Does the program demonstrate improved efficiencies or cost effectiveness
in achieving program goals each year? (This question received a SMALL EXTENT answer.)




                                            E-2
  Report Fraud, Waste, Abuse,
     and Mismanagement
           Fraud, waste, and abuse in government
           concern everyone: Office of Inspector
           General staff, Departmental employees,
             and the general public. We actively
           solicit allegations of any inefficient and
             wastef ul practices, fraud, and abuse
           related to Departmental or Insular Area
          programs and operations. You can report
              allegations to us in several ways.




By Mail:           U.S. Department of the Interior
                   Office of Inspector General
                   Mail Stop 4428 MIB
                   1849 C Street, NW
                   Washington, D.C. 20240

By Phone:          24-Hour Toll Free            800-424-5081
                   Washington Metro Area        703-487-5435

By Fax:            703-487-5402

By Internet:       www. doioig.gov /hotline
